No. _____
In The

Supreme Court of the United States
October Term, 2021
______________
Walter Crayton,
petitioner
v.
Commonwealth of Massachusetts,
respondent
_____________
Appendix to
Petition for Writ of Certiorari
_____________
Counsel of record for petitioner
David B. Hirsch
Law Office of David B. Hirsch
454 South St.
Portsmouth NH 03801 603431-0991
david.hirsch@comcast.net

Submitted April 12, 2021

NOTICE: Summary decisions issued by the Appeals Court pursuant to M.A.C. Rule
23.0, as appearing in 97 Mass. App. Ct. 1017 (2020) (formerly known as rule 1:28,
as amended by 73 Mass. App. Ct. 1001 [2009]), are primarily directed to the parties
and, therefore, may not fully address the facts of the case or the panel's
decisional rationale. Moreover, such decisions are not circulated to the entire
court and, therefore, represent only the views of the panel that decided the case.
A summary decision pursuant to rule 23.0 or rule 1:28 issued after February 25,
2008, may be cited for its persuasive value but, because of the limitations noted
above, not as binding precedent. See Chace v. Curran, 71 Mass. App. Ct. 258, 260
n.4 (2008).

COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT
19-P-1593
COMMONWEALTH
vs.
WALTER CRAYTON.
MEMORANDUM AND ORDER PURSUANT TO RULE 23.0
The defendant, Walter Crayton, appeals from his
convictions, after a Superior Court jury trial, of possession of
child pornography, G. L. c. 272, ยง 29C.1

Concluding that trial

exhibit ten (Exhibit 10) is child pornography within the meaning
of the statute, we affirm.
1.

Standard of review.

Ordinarily, in reviewing the

denial of a motion for a required finding of not guilty, "we
consider the evidence introduced at trial in the light most
favorable to the Commonwealth, and determine whether a rational

The jury also convicted the defendant of larceny, G. L. c. 266,
ยง 30 (1), and resisting arrest, G. L. c. 268, ยง 32B. The
defendant raises no issue on appeal regarding these convictions.
The defendant was convicted of six counts of possession of child
pornography, one for each item seized from him on November 15,
2014. After a jury-waived trial on the prior convictions, the
trial judge convicted the defendant as a second offender.
1

1

trier of fact could have found the essential elements of the
crime beyond a reasonable doubt."
Mass. 539, 547 (2017).

Commonwealth v. Oberle, 476

Here, however, the defendant challenges

only whether the images seized from the defendant constitute "a
lewd exhibition of the unclothed genitals, pubic area, buttocks
or, if such person is female, a fully or partially developed
breast of the child."

G. L. c. 272, ยง 29C (vii).

Whether an

image constitutes a lewd exhibition is a matter that we consider
de novo.

See Commonwealth v. Rex, 469 Mass. 36, 41 (2014);

Commonwealth v. Sullivan, 82 Mass. App. Ct. 293, 303 (2012).
2.

Lewd exhibition.

In determining whether an image is

lewd, we consider the factors listed in United States v. Dost,
636 F. Supp. 828, 832 (S.D. Cal. 1986), aff'd sub nom. United
States v. Wiegand, 812 F.2d 1239, 1244 (9th Cir.), cert. denied,
484 U.S. 856 (1987):
"1) whether the focal point of the visual depiction is on
the child's genitalia or pubic area;
"2) whether the setting of the visual depiction is sexually
suggestive, i.e., in a place or pose generally associated
with sexual activity;
"3) whether the child is depicted in an unnatural pose, or
in inappropriate attire, considering the age of the child;
"4) whether the child is fully or partially clothed, or
nude;
"5) whether the visual depiction suggests sexual coyness or
a willingness to engage in sexual activity; [and]
"6) whether the visual depiction is intended or designed to
elicit a sexual response in the viewer." Rex, 469 Mass. at
44-45, quoting Dost, supra at 832.

2
2

"It is well settled that 'nudity alone is not enough to render a
photograph lewd.'"

Rex, supra at 44, quoting Sullivan, 82 Mass.

App. Ct. at 302.
Here, Exhibit 10 depicts five naked girls standing side by
side, facing front, with their arms around each other.
arranged in order of height and development.

They are

The girl on the

viewer's right (the least developed girl) is holding a placard
with a "1" on it.

The placard is positioned so that it does not

obscure either her own genitals or breasts or the genitals or
the breasts of the girl next to her.
holding a placard with a "2" on it.

The girl next to her is
Again, the placard is

positioned so that it does not obscure either her own genitals
or breasts or the genitals or breasts of the children next to
her.

The girl on the viewer's left (the most developed girl) is

holding a placard with a "5" on it.

The placard is held out

away from the other girls, and positioned so that it does not
obscure the fifth girl's genitals or breasts.
The nudity of the children is the entire focus of the
image.

See Commonwealth v. Rollins, 470 Mass. 66, 77 (2014)

("girl's buttocks the focal point of the image"); Sullivan, 82
Mass. App. Ct. at 300 ("The focal point of the photograph is
[the adolescent girl's] developing breasts and, to a lesser
extent, her pubic area").

The unnatural ordering of the girls

with the placards corresponding to their development, carefully

3
3

placed so as not to obscure any genitals or breasts, adds to the
lewdness of the image.

See Rollins, supra ("The pose is

suggestive of either mischief or domination and thus seems
designed to elicit a sexual response in the viewer").

This is

not an image where "the children are not shown in any unnatural
poses."

Rex, 469 Mass. at 47.

Rather, "[g]iven the nudity,

posing, and touching, it is apparent that the picture is
designed to elicit a sexual response in the viewer."

Rollins,

supra.
The parties agree (as did the trial judge) that all of the
images constitute "a single cache," and thus may support only
one conviction for possession of child pornography.
470 Mass. at 67.

Rollins,

Accordingly, we need go no farther than

reviewing Exhibit 10, which was the basis of the count on which
the defendant was sentenced.
3.

Conclusion.

The parties agree with the trial judge

that, once appellate review is concluded, the convictions on the
other counts of possession of child pornography must be vacated
under Rollins, 470 Mass. at 74.

Accordingly, the judgment on

count A for possession of child pornography, second offense, is
affirmed.

The judgments on the convictions for larceny and

resisting arrest are affirmed.

The case is remanded to the

Superior Court for the judge to vacate the duplicative

4
4

convictions for possession of child pornography.
So ordered.
By the Court (Green, C.J.,
Ditkoff & Hand, JJ.2),

Clerk
Entered:

2

November 6, 2020.

The panelists are listed in order of seniority.
5
5

From:
Subject:
Date:
To:

SJCCommClerk@sjc.state.ma.us
FAR-27918 - Notice: FAR denied
January 15, 2021 at 10:04 AM
david.hirsch@comcast.net

Supreme Judicial Court for the Commonwealth of Massachusetts
RE: Docket No. FAR-27918
COMMONWEALTH
vs.
WALTER CRAYTON
Norfolk Superior Court No. 1582CR00084
A.C. No. 2019-P-1593
NOTICE OF DENIAL OF APPLICATION FOR FURTHER APPELLATE REVIEW
Please take note that on January 14, 2021, the application for further appellate review was denied.
Francis V. Kenneally Clerk
Dated: January 14, 2021
To: Pamela Alford, A.D.A.
Meagen K. Monahan, A.D.A.
David B. Hirsch, Esquire

6

COMMONWEALTH OF MASSACHUSETTS
NORFOLK, ss.

SUPERIOR COURT DEPT.
1582 CR 0084
COMMONWEALTH
v.
WALTER CRAYTON

DEFENDANT'S NOTICE OF APPEAL

Now comes the defendant in the above-entitled matter and provides notice, pursuant to
Rule 3 of the Massachusetts Rules of Criminal Procedure, of his intent to appeal certain
opinions, rulings, directions, and judgments of the Court in the above-entitled matter.

Respectfully submitted,

CRAYTON
omey:

S. YANKOWITZ
# 667455
//
e
s
/ 57 Providence Highway, Suite 201
Norwood, MA 02062
(781) 381-5228

CounselServic
lc
b
frP
ite
u
n
.o
_
k

I, Ethan S. Yankowitz, hereby certify that a copy of the foregoing No-tide; A p p a l wAg)deWe7rd4 to the
Norfolk County DA's Office this d a y of February, 2018.

'10(ef, -

i i f l 7

I, , : k A T T P T, THAT THIS DOCUMENT IS
AtERTFRE-D PHOTOCOPY OF AN
ORIGINAL ON FILE.

7

Assistant Clerk

